Audit Report




OIG-14-046
SAFETY AND SOUNDNESS: Failed Bank Review of Slavie
Federal Savings Bank, Bel Air, Maryland
September 15, 2014




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            September 15, 2014


            OIG-14-046

            MEMORANDUM FOR THOMAS J CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Jeffrey Dye /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Slavie Federal Savings Bank, Bel Air,
                                   Maryland


            This memorandum presents the results of our review of the failure of Slavie Federal
            Savings Bank (Slavie). Established as a mutual savings bank in 1900, Slavie
            converted to a stock institution with a mutual holding company structure in 2004.
            Slavie was wholly owned by SFSB, Inc. Slavie Bancorp MHC, a mutual holding
            company, owned 55 percent of the stock of SFSB. The remaining 45 percent of
            SFSB’s stock was held by other shareholders including the bank’s employee stock
            option plan. The bank’s home office and one branch were located in Bel Air and
            Baltimore, Maryland, respectively. OCC closed Slavie and appointed the Federal
            Deposit Insurance Corporation (FDIC) as receiver on May 30, 2014. As of
            March 31, 2014, the bank had approximately $140.1 million in assets. As of
            July 31, 2014, FDIC estimated the loss to the Deposit Insurance Fund to be
            $6.6 million.

            Because the loss to the Deposit Insurance Fund is less than $50 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Slavie that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver and (2) interviewed OCC examination personnel.

            We performed our audit fieldwork from June to August 2014. We conducted this
            performance audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
OIG-14-046
Page 2

provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Cause of Slavie Federal Savings Bank’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe or unsound condition to transact business,
(3) the bank’s unsafe or unsound practices or conditions were likely to cause
insolvency or substantial dissipation of assets or earnings, (4) the bank’s unsafe or
unsound practices or conditions were likely to weaken the institution’s condition,
(5) the bank’s unsafe or unsound practices or conditions were likely to seriously
prejudice the interests of the Deposit Insurance Fund, (6) the bank had incurred or was
likely to incur losses that would deplete all or substantially all of its capital and there
was no reasonable prospect for it to become adequately capitalized, (7) the bank was
undercapitalized and had no reasonable prospect of becoming adequately capitalized,
and (8) the bank was undercapitalized and had failed to submit a capital restoration
plan acceptable to the OCC within the time prescribed.

The primary cause of Slavie’s failure was its loan growth strategy that resulted in
significant concentrations in investor-owned residential real estate, commercial real
estate, and land development loans in the bank’s local market areas. Bank
management pursued this strategy without commensurate risk management and credit
administration practices, underwriting standards, or adequate capital to protect the
bank from a prolonged period of deteriorating asset quality. Beginning in 2007, in an
attempt to increase the bank’s earnings, the board and management’s lending strategy
shifted from mainly single family primary residence loans to a focus on growth in its
investor-owned residential real estate, commercial real estate, and land development
loan portfolios. Between 2007 and 2009, the bank rapidly expanded these portfolios
during a period of weakening economic conditions and accelerating deterioration in the
residential real estate market. Slavie’s board and management failed to adopt
concentration guidelines for these portfolios until after the bank had established
significant concentrations. The board and management’s lax oversight and failure to
adjust timely or effectively to changing economic conditions and the declining local
real estate market resulted in the deterioration of the bank’s asset quality, increased
concentrations in investor-owned residential real estate, commercial real estate, and
land development loans, as well as decreased earnings and capital. The problems
created by the board and management’s unsafe or unsound growth strategy were
severe and led to the depletion of the bank’s capital.
OIG-14-046
Page 3

Conclusion
Based on our review of the causes of Slavie’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of Slavie’s failure and that it had no concerns with our determination that
an in-depth review of the bank’s failure is not warranted. The response is provided
as Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron at (202) 927-1011.

Attachments
         OIG-14-046

       Attachment 1
Management Response
                                                       OIG-14-046

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
